Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




 CHILDREN’S DENTAL SERVICES
       UNDER MEDICAID

    ACCESS AND UTILIZATION




                   JUNE GIBBS BROWN
                   Inspector General

                       APRIL 1996
                      OEI-09-93-00240
                           OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This statutory
mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by three OIG operating components: the Office of Audit Services, the Office of
Investigations, and the Office of Evaluation and Inspections. The OIG also informs the Secretary of
HHS of program and management problems and recommends courses to correct them.

                               OFFICE OF AUDIT SERVICES

The OIG’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs and
operations in order to reduce waste, abuse, and mismanagement and to promote economy and
efficiency throughout the Department.

                              OFFICE OF INVESTIGATIONS

The OIG’s Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or
civil money penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

                     OFFICE OF EVALUATION AND INSPECTIONS

The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and
the public. The findings and recommendations contained in these inspection reports generate rapid,
accurate, and up-to-date information on the efficiency, vulnerability, and effectiveness of
departmental programs. This report was prepared in the San Francisco regional office under the
direction of Kaye D. Kidwell, Regional Inspector General, and Paul A. Gottlober, Deputy Regional
Inspector General. Project staff included:

SAN FRANCISCO                              HEADQUARTERS

Elizabeth Celniker                         Winnie Walker, Program Specialist
Thomas Purvis

For additional copies of this report, please contact the San Francisco office at (415) 437-7900.
              EXECUTIVE SUMMARY


PURPOSE

This inspection (1) identifies the reasons why many children are not receiving Early and
Periodic Screening, Diagnostic, and Treatment (EPSDT) dental services and (2) describes
State activities to improve access and utilization.

BACKGROUND

Medicaid’s EPSDT is a comprehensive health program that provides for initial and
periodic examinations and medically necessary follow-up care. Federal law requires that
States provide EPSDT services to eligible children from birth through age 20. The two
primary operational premises of EPSDT are access and utilization. That is, States must (1)
assure that health care providers are available and accessible and (2) teach Medicaid
families how to use available resources effectively.

Specifically, States must (1) recruit physicians, dentists, and other providers to participate
in EPSDT; (2) assure that these providers perform the medical and dental examinations,
diagnoses, and treatments; (3) locate eligible families and inform them about EPSDT;
(4) issue schedules specifying the desired frequency of medical, dental, vision, and hearing
screenings, based on professional practice standards; (5) report information on use of
EPSDT services to the Health Care Financing Administration (HCFA); and (6) provide all
services needed to treat any condition identified by a screen even if the State does not
include this service in its Medicaid plan.

In recent years, a number of States, as well as HCFA, the Administration for Children and
Families (ACF), the Public Health Service (PHS), and the Office of the Assistant Secretary
for Planning and Evaluation (ASPE) have expressed concern about the number of dentists
who are willing to see EPSDT enrollees. (As a result of a recent Departmental
reorganization, responsibilities for oral health within the former PHS have been transferred
to both the Office of Public Health and Science [OPHS] within the Office of the Secretary
and the Health Resources and Services Administration [HRSA].)

We interviewed Medicaid and dental public health officials in all 50 States and the District
of Columbia. We also contacted a sample of Head Start health directors, State and
national dental society representatives, private practice dentists, advocates, and other
experts.

FINDINGS

Few eligible children receive preventive dental services

Our interviews confirmed what the HCFA data show--few children receive EPSDT dental
services, and the extent of the problem varies significantly from State to State. In fact,


                                               i
HCFA data show that only 1 in 5 (4.2 million out of 21.2 million) eligible Medicaid
children received preventive dental services in 1993, a slight decrease from the 22 percent
who received services in 1992. Also in 1993, three-fourths of the States provided
preventive services to fewer than 30 percent, and none of the States provided them to more
than 50 percent, of all eligible children. The States’ statistics of children participating in
the EPSDT program are unreliable, because States vary in what data they collect and
report to HCFA.

The reasons few children receive dental care are complex

Approximately 80 percent of the States attribute the low utilization rate to a shortage of

dentists who are willing to accept Medicaid patients. Head Start grantees also report

increasing difficulty in obtaining dental services for their children. States report that

inadequate reimbursement is the most significant reason why dentists don’t accept

Medicaid patients. However, preliminary data from a few States that have raised fees

show that, at least initially, access and utilization do not increase proportionally. Dentists

also are dissatisfied with slow Medicaid payments, arbitrary denials, and prior

authorization requirements for routine services. Many dentists have difficulty treating

Medicaid families, and many non-pediatric dentists are unwilling to treat young children.


Medicaid families give dental services a low priority. Respondents report that Medicaid

families have competing family priorities, and many of them are unaware of the

importance of good oral health. Families often are unwilling to wait for appointments or

make necessary travel or child care arrangements which increases the likelihood of missed

appointments and failure to seek services.


The youngest children are the most difficult to serve and frequently are not screened at all.

Although the American Academy of Pediatric Dentists (AAPD) recommends that dentists

examine all children before their first birthday, only a small fraction of Medicaid children

receive these services. Twenty States have adopted the AAPD standard, another 12 States

recommend screening beginning during the second year, and the rest start at

age 3.


State, local, and private agencies are experimenting to improve access and utilization

In the past few years, State, local, and private agencies have begun initiatives to improve
the participation of dentists in Medicaid and to encourage children and families to use
dental services. State initiatives include: (1) increased reimbursement, (2) managed care
arrangements, (3) streamlined claims processing, (4) outreach and beneficiary education,
(5) mandated provider participation, (6) training general dentists and non-dental health
providers, (7) clinics for dental care, and (8) voluntary efforts by dentists. While some
States are planning to evaluate their projects, most do not yet have data to show whether
they are effective.




                                               ii
RECOMMENDATION

We recognize that there is significant legislation before Congress and the Administration
that would alter the relationship between the Federal government and the States on matters
discussed in this report. Nonetheless, we believe the following recommendation and the
options discussed for implementing it remain relevant under the current or future Federal-
State relationship.

The Department should convene a work group that, at a minimum, would include
HCFA, HRSA, ACF, OPHS, and ASPE to develop an integrated approach to improve
dental access and utilization for EPSDT eligible children.

With expanded membership, the existing PHS Oral Health Coordinating Committee
Working Group could fulfill this need. We suggest that the work group consider the
following issues:

       Should a special conference with State participants be convened to facilitate an
       exchange of ideas on existing and possible demonstrations, evaluation strategies,
       and dissemination protocols?

       Can a coordinated approach be developed to identify demonstration projects, grants,
       and other activities that would improve access and utilization?

       Are there ways to encourage professional volunteerism that would increase the
       availability of dentists to this underserved population?

       How can the Department support, promote, and improve education and outreach to
       Medicaid beneficiaries, their families, and the dental community?

       What incentives and demonstration projects can be developed or promoted at the
       State and local levels to increase provider participation?

       How can existing community organizations, many of which are supported by the
       Department, become involved in providing access to children’s dental services?

AGENCY COMMENTS

We received comments on the draft report from the Assistant Secretary for Health, the
Centers for Disease Control and Prevention, the National Institutes of Health (NIH),
HRSA, and HCFA. Both the Assistant Secretary for Health and NIH suggested that the
existing PHS Oral Health Coordinating Committee Working Group, with expanded
membership, could adequately address our recommendation and obviate the need for a new
Departmental work group. We agree that this is a viable alternative and have amended our
recommendation accordingly. The full text of the comments is contained in appendix C.




                                            iii
                        TABLE OF CONTENTS


                                                                                                                  PAGE


EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


  Few eligible children served . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


  Complex reasons          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


  Experimental projects to improve access and utilization                      . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDIX A:� Number and percent of children who received EPSDT
             preventive dental services in 1993, by State

APPENDIX B:� State initiatives to improve access and utilization
             of children’s dental services

APPENDIX C: Agency Comments
                           INTRODUCTION


PURPOSE

This inspection (1) identifies the reasons why many children are not receiving Early and
Periodic Screening, Diagnostic, and Treatment (EPSDT) dental services and (2) describes
State activities to improve access and utilization.

BACKGROUND

The EPSDT Program

Enacted by Congress in 1967, Medicaid’s EPSDT is a comprehensive health program that
provides for initial and periodic examinations and medically necessary follow-up care.
Federal law requires that States provide EPSDT services to eligible children from birth
through age 20.

The two primary operational premises of EPSDT are access and utilization. That is, States
must (1) assure that health care providers are available and accessible and (2) teach
Medicaid families how to use available resources effectively. Specifically, States must

       recruit physicians, dentists, and other providers to participate in EPSDT;

       locate eligible families and inform them about EPSDT services; and

       assure that Medicaid-certified physicians, dentists, or other providers perform the

       medical and dental examinations, diagnoses, and treatments.


In other words, States are required to (1) inform all persons who are Medicaid eligible
about EPSDT services, (2) provide or arrange for the provision of screening services, and
(3) arrange for all corrective treatment needed as a result of the screening.

Congress significantly amended EPSDT as part of the Omnibus Reconciliation Act of 1989
(OBRA 1989). The amendments require States to:

       issue schedules specifying the desired frequency of medical, dental, vision, and

       hearing screenings, based on professional practice standards (i.e., schedules

       developed in consultation with recognized professional associations such as the

       American Dental Association);

       report more detailed information on use of EPSDT services to the Health Care

       Financing Administration (HCFA); and

       provide all services needed to treat any condition identified by a screen even if the

       State does not include this service in its Medicaid plan.


Another OBRA 1989 amendment, which applies to the Medicaid program in general,
requires States to set reimbursement rates at a level sufficient to assure that Medicaid



                                              1

beneficiaries have access to providers equal to that of the general population in the same
geographic area. Prior to OBRA 1989, this requirement existed only in regulation.

Frequency and Content of EPSDT Dental Screening

States must establish and maintain schedules that specify how frequently children should
be screened. A physician or nurse practitioner usually conducts a general medical
examination when a child is born or when the family enrolls in Medicaid. The general
examination includes an oral health assessment. This oral assessment cannot substitute for
an examination by a dentist. Furthermore, States must assure that dentists examine
children at least as often as their dental screening schedules require.

States must establish the screening schedules in consultation with a recognized dental
association. For example, they may choose to follow the American Academy of Pediatric
Dentists (AAPD) screening guidelines that call for an initial examination by a dentist
during the first year of life and subsequently at least twice a year. The AAPD schedule
specifies that the initial screening should include a clinical oral examination and cleaning
for the child plus dental health counseling for the family. This initial screening also may
include fluoride treatments and the application of dental sealants. According to the AAPD,
early screening and education can prevent "baby bottle tooth decay" and other causes of
later childhood caries. Untreated, the conditions can produce severe tooth decay and gum
infection that may require specialized treatment or hospitalization.

EPSDT and the Head Start Program

Head Start requires that enrolled children receive dental examinations and treatment. Most
Head Start children are eligible for EPSDT services. The initial Head Start screening
usually is conducted by dental hygienists or trained paraprofessionals rather than dentists.
In addition, all Head Start children must receive an examination by a dentist at least once
during the school year and must be treated for any problems found.

In a previous study, the Office of Inspector General (OIG) reviewed a random sample of
80 Head Start grantees for the 1991-92 program year and found that approximately
85 percent received the required dental examination. Of the children requiring follow-up
dental treatment, the OIG found that 67 percent had all their dental needs met, 7 percent
had only some needs met, and 26 percent received no treatment.1 Nevertheless, these
figures are substantially higher than States report for all of their EPSDT enrollees.

Access to EPSDT Children’s Dental Services

In recent years, a number of States, as well as HCFA, the Administration for Children and
Families, the Public Health Service (PHS), and the Office of the Assistant Secretary for
Planning and Evaluation have expressed concern about the number of dentists who are

   1
    Office of Inspector General, Evaluating Head Start Expansion Through Performance Indicators (OEI-09-
91-00762), May 1993


                                                   2
willing to serve EPSDT enrollees. (As a result of a recent Departmental reorganization,
responsibilities for oral health within the former PHS have been transferred to both the
Office of Public Health and Science [OPHS] within the Office of the Secretary and the
Health Resources and Services Administration [HRSA].) Several recent studies have
focused on access problems and identified some of the reasons why few Medicaid children
receive dental services. For example:

        The Congressional Office of Technology Assessment reported in 1990 that none of

        the State Medicaid programs adequately covered children’s basic dental services

        and that a variety of barriers, identified by both dentists and State staff, restrict

        access.2

        A 1990 California Policy Seminar report found that most California county EPSDT

        programs were having trouble finding any dentists who were willing to see eligible

        children.3

        A series of oral health workshops sponsored in 1990 and 1991 by the PHS

        Maternal and Child Health Bureau described regulatory, administrative, and

        economic barriers that inhibit the delivery of dental services to children.


These studies identified inadequate reimbursement rates, complicated claims processing,
prior authorization requirements, and dentists’ actual or perceived problems with
beneficiaries as the reasons why so few dentists are willing to serve Medicaid children.

Data concerning provider participation are not available

National reporting requirements that would provide data concerning the number of dentists
participating in Medicaid do not exist. Also, adequate access has not been defined. Many
States look at only how quickly families or staff can find a dentist, rather than the number
who are getting services. Some States consider dentists to be participating if they file at
least one Medicaid claim during the year. This is misleading because many of these
dentists may refuse to take new Medicaid patients. Most States also lack data to track
referrals from EPSDT screenings to determine if needed diagnoses and treatment were
completed. A few States are beginning to compare the ratio of dentists willing to take
Medicaid patients to the Medicaid-eligible population, but most lack access data or
common measures.

The HCFA plans to collect and analyze data from selected States to provide information on
the participation rate among dentists and the impact this has on Medicaid children’s use of
dental services.




   2
    Congress of the United States, Office of Technology Assessment, Children’s Dental Services Under the
Medicaid Program, September 1990
   3
    California Policy Seminar, Access to Dental Care for Medi-Cal Recipients, Research Report, University
of California, Berkeley, 1990


                                                    3
Federal Oral Health 2000 Goals

Although approximately 21.2 million children were eligible for EPSDT services in 1993
(the last year for which data are available), only 1 in 5 received the required preventive
dental services.4 As part of its efforts to mitigate this problem, PHS launched the Oral
Health 2000 project in 1991 as a collaborative effort with a number of private and
voluntary health agencies. (The Office of Public Health and Science now has oversight
responsibilities for this project.) The primary goal of Oral Health 2000 is to raise public
awareness and improve access to oral health care services. Specific objectives are
designed to:

        reduce the occurrence and severity of oral diseases,

        reduce the unnecessary loss of teeth from disease, neglect, or trauma, and

        alleviate barriers that prevent individuals from achieving oral health.


Oral Health 2000 addresses the 16 oral health objectives that PHS developed as part of
"Healthy People 2000," a broader national health promotion initiative. One objective
specifically related to EPSDT is "to increase to at least 90 percent the proportion of all
children entering school programs for the first time who have received an oral health
screening, referral, and follow up for necessary diagnostic, preventive, and treatment
services." Other issues concern increased use of fluorides, cessation of tobacco use, and
the oral health of handicapped and minority populations.

METHODOLOGY

Our study methodology was four-fold. Basically, we:

        gathered existing EPSDT data from HCFA records,

        conducted telephone and in-person interviews to gather new information about the
        status of EPSDT dental services in the States,

        conducted telephone and in-person interviews to gather new information about State
        and local initiates to improve access and utilization, and

        presented the existing and new information in a single document.                    .

We interviewed officials in all 50 States and the District of Columbia. In most States, we
interviewed EPSDT coordinators and Medicaid dental consultants as well as the State’s
chief dental officer. We also contacted a sample of Head Start health directors, State
dental society representatives, private practice dentists, advocates, and other experts. The



   4
     Health Care Financing Administration, EPSDT Program Indicators, Fiscal Year 1993, HCFA-416
Performance Reports, Early and Periodic Screening, Diagnostic and Treatment Program, 50 States and
District of Columbia


                                                    4
American Dental Association and the American Academy of Pediatric Dentists helped
facilitate contacts with State organizations and provided other information and assistance.

We conducted our review in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                              5

                                       FINDINGS


FEW ELIGIBLE CHILDREN RECEIVE PREVENTIVE DENTAL SERVICES

Our interviews confirmed what the HCFA data show5--few children receive EPSDT dental
services, and the extent of the problem varies significantly from State to State. (See
appendix A for a State-by-State breakdown of the 1993 data.) In fact, HCFA data show
that only 1 in 5 (4.2 million out of 21.2 million) eligible Medicaid children received
preventive dental services in 1993. This was a slight decrease from the 1992 data as
shown in the following table:

                     PERCENT OF EPSDT CHILDREN WHO RECEIVED

                           PREVENTIVE DENTAL SERVICES

                           BY AGE GROUP, 1992 AND 19936



                                       All          <1         1-5        6-14        15-20
                      Year             Ages        Year       Years       Years       Years

                     1992              22.0         0.3       18.1         33.7       22.2
                     1993              19.7         0.4       16.0         30.0       19.5

Also in 1993, three-fourths of the States provided preventive services to fewer than
30 percent, and none of the States provided them to more than 50 percent of all eligible
children. Since some of the States only began using HCFA’s dental prevention service
codes in 1993, they may have under-reported the care actually given.

The States’ statistics of children participating in the EPSDT program are unreliable,
because States vary in what data they collect and report to HCFA. A 1992 OIG inspection
found that the screening and participant ratios used to measure States’ performance were
inaccurate.7 Therefore, it is difficult to accurately assess States’ success in reaching and
screening Medicaid children under EPSDT. The HCFA has issued guidelines clarifying
how to compute the screening and participant ratios more accurately, but no information is



    5
     For data collection purposes, HCFA defines preventive dental services as the unduplicated count of
individuals who receive (1) instruction in self-care oral hygiene procedures, (2) a teeth cleaning, and
(3) when appropriate, an application of dental sealants to prevent decay.
    6
    This table is based on data from HCFA reports on EPSDT program indicators for fiscal years 1992 and
1993, the most recent years available.
    7
     Office of Inspector General, Early and Periodic Screening, Diagnosis, and Treatment (EPSDT) --
Performance Measurement, OEI-07-90-00130.


                                                     6
available to determine whether the guidelines are improving the accuracy and consistency
of the reported data.

THE REASONS FEW CHILDREN RECEIVE DENTAL CARE ARE COMPLEX

Children do not receive preventive dental services for three basic reasons:

       few dentists serve Medicaid children,

       Medicaid families give dental services a low priority, and

       the youngest children are the most difficult to serve and frequently are not screened

       at all.


Respondents report that few dentists serve Medicaid children

Despite the paucity of data, approximately 80 percent of the States attribute the low
utilization rate to the shortage of dentists who are willing to accept Medicaid patients. In
many communities, families and EPSDT staff have difficulty getting timely dental
appointments for Medicaid children. They often have to wait 6 to 8 weeks or travel long
distances. Even among the 9 States reporting an adequate supply of dentists, 5 provided
preventive services for fewer than 20 percent of eligible children. Although shortages are
usually more severe in rural areas or isolated locations, 13 States report statewide
shortages.

States report that inadequate reimbursement is the most significant reason why dentists
don’t accept Medicaid patients. Respondents in some States report that Medicaid fees do
not even cover overhead costs, and dentists lose money on each patient served. Despite
this, reimbursement increases do not guarantee greater provider participation immediately.
(See the discussion of increased reimbursement incentives on page 9.) The OIG did not
verify respondents’ assertions that Medicaid reimbursement is inadequate.

Like other health care providers, dentists are dissatisfied with the complex Medicaid claims
process, slow payments, arbitrary denials, and prior authorization requirements for routine
services. While many States have taken steps to streamline claims processing, dentists
may not be aware of these reforms because of inadequate provider outreach. Some
respondents say that the small size of solo dental practices keeps many dentists from fully
utilizing claims processing improvements such as electronic billing.

Many dentists also have difficulty treating Medicaid families and young children. They
find that Medicaid families are more likely than others to break appointments at the last
minute or not show up at all. Dentists claim that because of office scheduling practices,
missed appointments are a more serious problem for them than for most physicians.
Dentists also claim that Medicaid families sometimes create difficulties in their offices, for
example, when a parent brings three children in addition to the child with the appointment
and allows them to play raucously and disrupt others in the waiting room. Furthermore,
many non-pediatric dentists are unwilling to treat young children, because these youngsters
often take more time to examine than older patients and may require sedation.


                                              7
Head Start grantees also report increasing difficulty in obtaining dental services for their
children. Even though grantees eventually get a majority of their children examined and
treated, their health directors have to spend more time and effort to accomplish this than in
the past. The enrollment of 3-year-old children has made many dentists reluctant to serve
Head Start. Grantees often transport children long distances to see a dentist because local
dentists refuse to accept Medicaid. Some grantees persuade a local dental clinic or
individual dentist to block off half a day for their children or persuade a dentist and
hygienist to come to the Head Start site. A few grantees locate available dentists, but then
insist that the parents themselves make and keep the appointments so they can learn
responsibility. When a dental emergency precludes waiting or travel, some grantees spend
funds from their own budgets to pay for treatment.

Medicaid families give dental services a low priority

Respondents report that Medicaid families have competing family priorities, and many of
them are unaware of the importance of good oral health. Some States are increasing
efforts to educate families, but they still give less attention to dental issues than to medical
services such as immunizations. The result is that families give a lower priority to dental
care than to medical care.

Medicaid families often miss appointments or forgo dental services. Because dental
services are not a priority, many families are unwilling to wait for appointments or make
necessary travel or child care arrangements. This increases the likelihood of missed
appointments and failure to seek services. Many families will not make an effort to see a
dentist even though they might to see a physician. Despite reminders and offers of
transportation, beneficiaries often do not keep their appointments unless their children are
in pain on the day of the appointment. Because dental care is a low priority, families
often fail to follow dentists’ instructions.

The youngest children are the most difficult to serve and frequently are not screened

Although the American Academy of Pediatric Dentists (AAPD) recommends that dentists
examine all children before their first birthday, only a small fraction of Medicaid children
receive these services. Twenty States have adopted the AAPD standard, another 12 States
recommend that screening begin during the second year, and the rest start screening at age
3. States will pay for screening if a parent suspects a problem and takes the child to a
dentist, even if the child is younger than the State’s screening schedule specifies.

Even States adopting the AAPD standard often are unable to find dentists who will
examine and treat children who are less than 3 years old. Non-pediatric dentists often are
unfamiliar with the EPSDT program and are unsure of the protocol to follow in examining
very young children. Because of this, a few State EPSDT staff question whether States
should consume resources trying to find a dentist to examine children under age 3 unless
they are at high risk or the general medical screening identifies an oral health problem.




                                               8

A few States are developing training programs and videotapes on techniques for detecting
oral health problems of very young children. These materials are primarily for general
dentists and non-dental health care providers. Dental experts in these and other States
recognize the importance of careful oral examination in early infancy and oral health
counseling to prevent conditions such as baby bottle tooth decay. They believe that
pediatricians and other non-dental personnel are more likely than dentists to screen
children who are less than 3 years old. They contend that with careful training non-dental
health care providers are competent to detect oral health problems and refer children to
dentists for diagnosis and treatment. They hope to change some providers’ attitudes about
oral examinations, such as the physician who liked to boast, "Oral exams are no problem.
I look past the teeth to the tonsils."

STATE, LOCAL, AND PRIVATE AGENCIES ARE EXPERIMENTING TO
IMPROVE ACCESS AND UTILIZATION

State and local governments and private agencies have begun initiatives to improve the
participation of dentists in Medicaid and to encourage children and families to use dental
services. Their initiatives include:

Increased reimbursement or other financial incentives

In the past few years, more than half the States have increased dental reimbursement or
taken steps to provide other financial incentives. Fifteen States raised fees significantly,
and another 11 by smaller amounts. Several States are proposing additional financial
incentives. For example, Georgia legislators introduced a proposal to authorize State tax
credits to dentists and other providers who agree to serve poor children.

Preliminary data from a few States that have raised fees show that initially access and
utilization do not increase proportionally. Although Connecticut raised fees by
80 percent, the overall increase in the number of services provided may not be substantial.
California raised rates to 80 percent of the average amount billed in the previous year, but
utilization still lags even though more dentists are available. Costs for Medicaid dental
services in California have gone from about $150 million in 1991 to a projected
$750 million in 1995. Other States report that fee increases have not been sufficient to
bring fees close to the dentists’ usual and customary charges. Several respondents note
that dentists who drop Medicaid are frequently reluctant to return even if States raise fees
or eliminate red tape.

A few States have restricted coverage of some dental procedures and used the savings to
increase payments for the rest. For example, in response to a proposal from the State
dental association, Indiana eliminated routine coverage for half of its children’s dental
procedures and used the savings to increase fees for the remaining basic preventive and
restorative services. The State will still cover these procedures for EPSDT children when
medically necessary, but at a lower rate and subject to prior authorization to justify
medical necessity. Other States have dropped or plan to drop most adult Medicaid dental
services, some claiming this is necessary to keep children’s services fully funded.


                                              9
Managed care arrangements

To facilitate access and contain costs, almost all the States are establishing managed care
arrangements for Medicaid beneficiaries. Only 22 States have set up some form of dental
managed care, either statewide or pilot projects. The rest either explicitly exclude dental
services or have not yet decided because their plans are at a preliminary stage. Those who
are explicitly excluding dental services report they will reconsider at a future date. Some
States attempted to contract for dental managed care benefits but did not get any
satisfactory bids because the fees they could pay were too low. Respondents report that
dentists’ resistance to managed care arrangements is a factor limiting implementation.

Among the approaches States are using to acquire dental services under managed care
plans are: capitated risk plans, primary care case management, fee-for-service programs,
and a mixture of capitation and fee-for-service. None of these is mutually exclusive. In
some States, a physician serves as a gatekeeper to medical and dental services. In Arizona
and Tennessee, dentists contract with local or statewide health plans to provide services
either through a capitated rate or a fee for service arrangement. Illinois has a statewide
contract with Delta Dental to provide all EPSDT services at a fixed price. Several
respondents are critical of plans that subcontract dental managed care arrangements
through health plans, claiming that the extra administrative costs reduce funds available to
dentists providing actual services and therefore limit access. States are just beginning to
develop monitoring procedures for dental services under managed care arrangements.

Streamlined claims processing

Nineteen States report taking recent steps to streamline claims processing, speed up
payment, and reduce denials. Many other States already have taken these steps. States
are:

       replacing HCFA claims forms with universal forms issued by the American Dental

       Association (ADA),

       removing prior authorization requirements,

       reducing denials,

       setting up electronic billing, and

       speeding up payments.


New Mexico, for example, is adopting the ADA claims forms and will supply dentists with
the software for electronic claims processing. Florida has set up electronic billing but
reports dentists are resistant to it. Arizona eliminated most prior authorization
requirements. North Carolina worked with its dental association to establish use of ADA
claims forms and electronic billing. Some respondents praise State steps to streamline
claims processing but maintain this factor will not significantly improve access if States do
not also raise fees and help families to make and keep appointments.




                                             10

Outreach and beneficiary education

States report a wide range of new outreach and education efforts, either working directly
with families or through dentists’ offices. The Alaska Head Start dental initiative funds
indigenous staff to provide oral health education and outreach to rural, remote Alaska
native communities. Illinois contracts with Delta Dental to educate beneficiaries about the
importance of dental screening services. Coupling Medicaid and private funding, New
Hampshire established an access-to-care project to increase public and provider acceptance
of Medicaid and EPSDT and to assure that every eligible child gets needed medical and
dental services.

Mandated provider participation

A few States are mandating provider participation directly or through State plans for
provider distribution. Minnesota mandates that dentists treat Medicaid patients up to a
specific threshold as a condition of participating as providers in health plans for State
employees. As part of a statewide health improvement initiative, Washington established a
Health Personnel Resource Plan for regulating the supply and distribution of dentists and
other health personnel.

Training general dentists and non-dental health providers

A few States have begun pilot projects to train non-pediatric dentists and non-dental health
providers about pediatric oral health problems. The Texas Medicaid program is developing
a videotape for use by non-dental health workers who screen young children. The video
will explain techniques for adequate oral screening, describe necessary elements for oral
health counseling, and specify that each child should be referred to a dentist if any decay
or abnormality is found. Washington is developing a pilot project to train non-pediatric
dentists about new pediatric dental screening and treatment techniques. With the
University of Iowa pediatric dental department, Iowa established an educational task force
to educate general dentists on pediatric dental issues and to assure that at least one dentist
in each county is willing to examine year-old children. Iowa has produced a monograph
on children’s dental examinations and is reviewing data to determine how many children
under age one dentists actually examine.

Clinics for dental care

Respondents from 20 States report efforts are under way to set up new dental clinics or
expand existing ones to increase dental services available to Medicaid and other low-
income beneficiaries. Expansion of dental clinic capacity is underway in a variety of clinic
settings, including Federally Qualified Health Centers, hospital-based clinics, and clinics
operated by State and local health departments. In Delaware, for example, all Medicaid
beneficiaries are served in State-operated clinics; almost no private practice dentists
participate in Medicaid. In Alabama, some local health or primary care clinics make a
block of time available for dental services and treat clients on a first-come, first-served
basis. The New Mexico and Nevada legislatures decided to expand clinics to assure


                                             11
greater availability of dental services to low-income clients. Some respondents point out
that legislators and others see clinics as a way to expand or maintain services without
significant dental fee increases.

Voluntary efforts by dentists

Several States, localities, and dental associations are encouraging dentists to serve their fair
share of Medicaid children. Starting about 1990, California’s Contra Costa County dental
society and EPSDT staff began a "share-the-care" project. Participating dentists agree to
take one to three new Medicaid cases yearly or quarterly. County EPSDT staff make the
referrals and ensure that participating dentists receive no more patients than they have
agreed to. Other counties, not only in California but also in States such as Wisconsin,
Colorado, and Texas, have started similar programs. North Dakota encourages dentists to
accept a fair share of Medicaid patients and may provide non-monetary public recognition
through "exemplary service" awards. Respondents report that while these voluntary
programs are worthwhile, they usually reach only a small percentage of eligible children.

While some States are planning to evaluate their projects, most do not yet have data to
show whether they are effective. A description of selected projects to improve access and
utilization is contained in appendix B.




                                               12

                     RECOMMENDATION


We recognize that there is significant legislation pending before Congress and the
Administration that would alter the relationship between the Federal government and the
States on matters discussed in this report. Nonetheless, we believe the following
recommendation and the options discussed for implementing it remain relevant under the
current or future Federal-State relationship.

THE DEPARTMENT SHOULD CONVENE A WORK GROUP THAT, AT A
MINIMUM, WOULD INCLUDE HCFA, HRSA, ACF, OPHS, AND ASPE TO
DEVELOP AN INTEGRATED APPROACH TO IMPROVE DENTAL ACCESS
AND UTILIZATION FOR EPSDT ELIGIBLE CHILDREN

With expanded membership, the existing PHS Oral Health Coordinating Committee
Working Group could fulfill this need. We suggest the work group consider the following
issues:

       Should a special conference with State participants be convened to facilitate an
       exchange of ideas on existing and possible demonstrations, evaluation strategies,
       and dissemination protocols?

       Can a coordinated approach be developed to identify demonstration projects, grants,
       and other activities that would improve access and utilization?

       Are there ways to encourage professional volunteerism that would increase the
       availability of dentists to this underserved population?

       How can the Department support, promote, and improve education and outreach to
       Medicaid beneficiaries, their families, and the dental community?

       What incentives and demonstration projects can be developed or promoted at the
       State and local levels to increase provider participation?

       How can existing community organizations, many of which are supported by the
       Department, become involved in providing access to children’s dental services?




                                            13

                    AGENCY COMMENTS


We received comments on the draft report from the Assistant Secretary for Health, the
Centers for Disease Control and Prevention, the National Institutes of Health, HRSA, and
HCFA. Both the Assistant Secretary for Health and the National Institutes of Health
suggested that the existing PHS Oral Health Coordinating Committee Working Group, with
expanded membership, could adequately address our recommendation and obviate the need
for a new Departmental work group. We agree that this is a viable alternative and have
amended our recommendation accordingly.

We also would like to draw the reader’s attention to the full text of the comments, which
is contained in appendix C. In addition to some technical comments, they provide
valuable information concerning issues that are not discussed in our report as well as other
activities that the Department has undertaken to address children’s oral health.




                                             14

                                   A P P E N D I X A


                   NUMBER AND PERCENT OF CHILDREN WHO RECEIVED

                        EPSDT PREVENTIVE DENTAL SERVICES

                                 IN 1993, BY STATE1



STATE                               NUMBER OF         NUMBER              PERCENT
                                     EPSDT         WHO RECEIVED             OF
                                    ELIGIBLE       PREVENTIVE             ELIGIBLES
                                    CHILDREN         SERVICES

 Connecticut                            193094             52543                27.2
 Maine                                  106828             36819                34.5
 Massachusetts                          404857            139414                34.4
 Rhode Island                            66136             21003                31.8
 New Hampshire                           40011             17905                44.8
 Vermont                                 52251             17636                33.8
 Region I Total                         863177            285320                33.1

 New Jersey                            447272             101410                22.7
 New York                             1585786             283453                17.9
 Region II Total                      2033058             384863                18.9

 Delaware                               50585               6283                12.4
 Maryland                              229146              33129                14.5
 Pennsylvania                          880017             185289                21.1
 Virginia                              328090              64718                19.7
 District of Columbia                   73837              11800                16.0
 West Virginia                         135594              41452                30.6
 Region III Total                     1697269             342671                20.2

 Alabama                               279138              31369                11.2
 Florida                              1355013             222493                16.4
 Georgia                               643424             161496                25.1
 Mississippi                           470032              56843                12.1
 Kentucky                              293083              27604                 9.4
 North Carolina                        550567              75794                13.8
 South Carolina                        302471              37876                12.5
 Tennessee                             534231             129886                24.3
 Region IV Total                      4427959             743361                16.8


            1
            This table is based on data from the HCFA-416 performance report on EPSDT
        program indicators for fiscal year 1993.

                                                 A-1
Illinois             1027303           214810   20.9
Indiana               345751           144005   41.6
Michigan              823052           215885   26.2
Minnesota             291466            73539   25.2
Ohio                  948612           216584   22.8
Wisconsin             342664            77103   22.5
Region V Total       3778848           941926   24.9

Arkansas              207085            35062   16.9
Louisiana             498389           128199   25.7
New Mexico            133524             8290    6.2
Oklahoma              162598            30949   19.0
Texas                1330465           160284   12.0
Region VI Total      2332061           362784   15.6

Iowa                 169516             56210   33.2
Kansas               113286             40106   35.4
Missouri             403702             86619   21.5
Nebraska             102285             34267   33.5
Region VII Total     788789            217202   27.5

Colorado             210749             44305   21.0
Montana               57019              5119    9.0
North Dakota          32799              2625    8.0
South Dakota          47702              8543   17.9
Utah                 123966             19186   15.5
Wyoming               34976             15157   43.3
Region VIII Total    507211             94935   18.7

Arizona               413100             1153    0.3
California           3583936           601451   16.8
Hawaii                 68008              503    0.7
Nevada                 34845             5010   14.4
Region IX Total      4099889           608117   14.8

Alaska                51691             14468   28.0
Idaho                 71269             14967   21.0
Oregon               206524             71661   34.7
Washington           304257             89128   29.3
Region X Total       633741            190224   30.0

TOTAL               21162002          4171403   19.7




                               A-2

                   APPENDIX B

   STATE AND LOCAL INITIATIVES TO IMPROVE
       DENTAL SERVICES FOR CHILDREN




INTRODUCTION                                                           B-2


BENEFICIARY ACCESS, EDUCATION, AND OUTREACH

    Alaska Head Start Collaboration Project’s Dental Initiative        B-2

    Illinois Statewide Dental Contract                                 B-3

    Maryland Head Start Collaboration Project’s Dental Initiative      B-4

    Michigan Projects to Improve Dental Access                         B-4

    New Hampshire Access to Care Project                               B-5

    Washington Oral Health Improvement Plan                            B-5


PROVIDER PARTICIPATION

    California Dental Access Program                                   B-6

    Delaware Clinic Program                                            B-7

    Georgia Tax Credit                                                 B-7

    Indiana Dental Procedure Priorities                                B-8

    Minnesota Medicaid Provider Mandate                                B-8

    New Mexico Patient Management Assistance                           B-9

    North Carolina Clinic Program                                      B-9

    Wisconsin Access and Utilization Initiatives                      B-10

    Wisconsin Fee Increases                                           B-10

    Contra Costa County (CA) "Share-the-Care" Dental Access Project   B-11


PROVIDER TRAINING AND EDUCATION

    Iowa Pediatric Dental Education Program                           B-12

    Texas Oral Health Video Project                                   B-12

    Spokane (WA) Dental Prevention Project                            B-13





                                B-1

INTRODUCTION

The activities described in this appendix are representative of initiatives to improve
children’s access to and utilization of dental services. Some are designed to increase the
supply of available dentists by increasing fees or reducing red tape, while others are
designed to help families with access, education, and outreach or to train professionals.
Some were initiated by State Medicaid or public health agencies and others by professional
and community organizations in cooperation with the States.

The listing is not a complete catalog of all State or local initiatives or a complete
description of each project. More detailed information can be obtained from the contact
person listed.

This listing does not constitute an OIG endorsement of any of the initiatives. While some
States or other entities are planning to evaluate these projects, most do not yet have data to
show whether they are effective.


BENEFICIARY ACCESS, EDUCATION, AND OUTREACH

Alaska Head Start Collaboration Project’s Dental Initiative

The Alaska Head Start Health Improvement Initiative, which began in 1991, is designed to
improve the dental health of children living in remote Alaskan villages across the State.
Native Alaskan children have one of the highest rates of tooth decay in the United States.
This is a result of factors such as infrequent and intermittent access to care, detrimental
nutrition patterns, and child rearing traditions that do not include oral hygiene.
Historically, Head Start programs serving rural Alaska communities have not been able to
comply with the dental screening standard.

The project (1) established a provider network of culturally-sensitive dentists who travel to
the villages to screen and treat children and (2) trained community staff in the villages to
provide oral health education and outreach to children and families. While the target
population is primarily native Alaskan children, the project includes all Medicaid-eligible
children from birth to age 6.

The State Medicaid agency, the tribal health corporation in Nome, the State Head Start
Association, and the State dental association have formed a coalition to work with the
project and seek its continuation. The project will attempt to generate data showing that
village-based care is cost effective and will distribute a manual for providers and others
seeking to set up similar networks.




                                            B-2

    For more information contact:

    Sally Mead, Director

    Alaska Head Start Health Improvement Initiative

    Prevention Associates

    101 East 9th Avenue, Suite 10B

    Anchorage, AK 99501

    907-272-6925


Illinois Statewide Dental Contract

Beginning in 1992, Illinois contracted for a fixed price with the Delta Dental Plan of
Illinois to provide all EPSDT dental services statewide, including outreach, oral health
education, screening, follow-up treatment, and tracking the children and families to assure
they get the required services. Delta contacts all families who have children between the
ages of 3 to 20 who have not been screened in the past year. Names and addresses are
also provided to the local EPSDT offices for follow-up. Other outreach efforts include
press releases, public service announcements, and messages about dental services targeted
to specific communities. Delta will refer families to dentists and make appointments, if
necessary, for the initial screening or follow-up treatment.

Delta contracts with dentists, paying a fee based on the dentist’s usual and customary
charges. Delta also contracts with schools, health centers, and other clinics to make
dentists available for group screenings and preventive services. A Delta manual specifies
provider responsibilities and a protocol for screening in schools.

The contract requires Delta to provide services to at least one-half of the EPSDT-eligible
children in Illinois. Delta must assure that screening goals are met, screening results are
recorded, and referrals for treatment are issued. The State conducts compliance reviews
and fiscal audits.

    For more information contact:

    Michael Berger, Vice President                  Deborah Saunders, Coordinator
      of Government Programs                        Illinois Department of Public Aid
    Delta Dental Plan of Illinois                   201 South Grand Avenue, East
    2001 Butterfield Road, Suite 900                Springfield, IL 62763-0001
    Downers Grove, IL 60515                         217-524-7163
    708-964-2400




                                            B-3

Maryland Head Start Collaboration Project’s Dental Initiative

The Maryland Head Start Collaboration Project was initiated in 1993 to eliminate barriers
to health care for Head Start children. To identify problems and develop statewide
solutions, the project formed a coalition of representatives from public and private
agencies. The project is part of the governor’s office and, because of its location, project
staff not only work closely with the Medicaid program but also have access to State
policymakers.

One of the project’s early initiatives was to survey Head Start grantee staff. The survey
found that 38 percent of grantees have difficulty obtaining dental care for their children.
According to grantees, only about 12 percent of dentists in their areas accept Medicaid.
As a result of the survey, the project is recommending early outreach and oral health
education for parents and children.

Recruiting dentists for Medicaid has been very difficult largely because the Maryland
Medicaid program pays lower fees than almost any other State. The project will initiate a
survey to clarify dentists’ concerns about reimbursement and other issues. The survey will
ask about dentists’ problems with the claims process and about difficulties they may have
in examining and treating young children. Staff will work with Medicaid, other State
agencies, and dentists to determine appropriate solutions. The project will then undertake
educational efforts to encourage more dentists to treat 3- and 4-year-olds.

      For more information contact:

      Gayla Sanders, Head Start Collaborator

      Division of Policy and Planning

      Governor’s Office for Children, Youth, and Families

      301 West Preston Street, 15th Floor

      Baltimore, MD 21201

      410-225-4160


Michigan Projects to Improve Dental Access

Michigan funded eight oral health outreach projects in 1994 as part of its "Healthy Kids"
program. The projects include such initiatives as:

  •   utilizing mobile dental vans and portable equipment,
  •   establishing county dental clinics,
  •   coordinating efforts with schools regarding dental hygiene education, and
  •   improving data collection and dissemination.

Michigan formed a statewide oral health coalition to help generate legislative support for
these projects and for other oral health improvement activities.




                                            B-4

    For more information contact:

    Christine Cascaddan, Senior Policy Analyst

    Medical Services Administration

    Michigan Department of Social Services

    Bureau of Policy and Management Information

    400 South Pine Street

    P.O. Box 30037

    Lansing, MI 48909

    517-335-5129


New Hampshire Access to Care Project

New Hampshire established the Access to Care Project in 1992 to increase public
acceptance of Medicaid and EPSDT and to insure that every eligible child receives needed
medical and dental services. The project is jointly sponsored by the State Medicaid
program, the New Hampshire Alliance for Children, and the New Hampshire Pediatric
Society. Funding is provided by the Jessie B. Cox Charitable Trust in Boston and matched
with New Hampshire Medicaid funds.

The project (1) seeks support from the general public for increased children’s services
through outreach and education about EPSDT, (2) insures that all eligible children have a
primary care physician to serve as an oral health advocate for the child and family in
addition to providing other care, and (3) explains EPSDT mandates and benefits to dentists
and other health professionals and persuades them to participate.

    For more information contact:

    Carol Currier, Administrator

    Division of Human Services

    Office of Medical Services

    6 Hazen Drive

    Concord, NH 03301-6521

    603-271-4350


Washington Oral Health Improvement Plan

In 1993, Washington enacted the Public Health Improvement Plan to improve general
health status in Washington through prevention and improved public health services
capacity. Among other goals, the plan seeks to ensure universal access to needed health
services for all State residents. Oral health is a key component of the health improvement
initiative. The oral health component emphasizes that lack of access to dental care is at
crisis levels, especially for low income and Medicaid-eligible children. Because of the
lack of early preventive care and family education, hospital emergency rooms are handling
cases of baby bottle tooth decay with charges up to $3000 per child. The Oral Health



                                          B-5

Improvement Plan has developed several strategies to address these problems. They
include:

  •   programs to screen children in the first year of life,
  •   universal dental screening of school children,
  •   increasing Medicaid dental fees,
  •   training non-dental medical professionals to recognize oral health problems,
  •   innovative interventions to prevent caries in infants and young children, and
  •   increasing families’ willingness to see dentists by getting parents to understand that
      dental care is as important as medical care.

One goal of the plan has been to sensitize doctors and nurses to begin to see dental issues
in a medical framework. State dental staff say that getting health professionals to think of
dental caries as a preventable infectious disease fits very well into their medical
orientation. This also fits into the University of Washington dental school’s program to
educate health professionals and make them more responsive about oral health issues. For
example, staff designed an oral health training program for public health nurses so the
nurses understand how to integrate oral health into their public health work. Ultimately,
the State believes this understanding will result in better access to dentists and earlier
intervention with dental problems.

      For more information contact:

      Elizabeth Hines, Oral Health Service Administrator

      Community and Family Health

      Washington Department of Health

      P.O. Box 47880

      Olympia, WA 98504-7880

      360-753-5423



PROVIDER PARTICIPATION

California Dental Access Program

Beginning in 1992, the California EPSDT program conducted a statewide dental access
improvement program which resulted in 40 county volunteer dental coalitions and the wide
distribution of dental access resource manuals. The project established 9 regional
workshops which were attended by more than 700 individuals representing private practice
dentists, local public health programs, community clinics, professional organizations,
universities and others concerned about children’s oral health issues. Community dental
providers were introduced to their county EPSDT program, Head Start, and other local
children’s programs.

The local coalitions developed specific strategies and activities for improving access to
dental care in their respective communities. The most widespread strategy has been the


                                              B-6
establishment of volunteer share-the-care programs similar to those started in Contra Costa
and other counties. Some coalitions have become involved with preventive strategies
including baby bottle tooth decay, community water fluoridation campaigns, and the
planning of community health fairs.

    For more information contact:

    Renee Nolte-Newton, Dental Hygienist Consultant

    Children’s Medical Services Branch

    California Department of Health Services

    714 P Street, Room 400

    Sacramento, CA 95814

    916-653-4860


Delaware Clinic Program

Because almost none of Delaware’s approximately 400 private practice dentists participate
in Medicaid, nearly all EPSDT dental services are provided through clinics. For some
years, the State has provided dental services to approximately 50,000 EPSDT-eligible
children in 8 public health clinics. The State pays each clinic a monthly fee of $111 for
each enrolled child to cover all medical and dental services. Each clinic is staffed with
one dentist and one assistant. For specialized care, the clinic may refer children to a
pediatric dentist and pay fee-for-service rates. In addition to the clinics, a few hospitals
and a community college employ dentists who provide Medicaid services.

    For more information contact:

    David Mihalik, Social Service Senior Administrator

    Delaware Department of Health and Social Services

    1901 North DuPont Highway

    New Castle, DE 19720

    302-577-4900


Georgia Tax Credit

Georgia legislators introduced a proposal in 1995 (House Bill LC-10-0948) to authorize
State tax credits to dentists and other providers who agree to serve poor children. The bill
would have given a credit of $50 against State income taxes due from physicians or
dentists for each indigent patient treated in a public clinic and from whom no
compensation is received. Providers could carry forward indefinitely unused credits. The
proponents of the legislation believe that the amount of the credit is enough to partially
overcome losses for treating indigent patients, but it is not high enough to cause providers
to substitute non-paying for paying patients. The bill was not passed in 1995, but
legislators plan to re-introduce it in the 1996 legislative session.




                                            B-7

    For more information contact:

    Tim Burgess, Director

    Office of Planning and Budget

    254 Washington Street SW, Suite 614

    Atlanta, GA 30334

    404-656-3820


Indiana Dental Procedure Priorities

In 1995, to retain participation of dentists in the EPSDT program, Indiana eliminated many
adult dental services and reduced the number of children’s procedures that will be
reimbursed routinely. With the savings, the State increased fees for the remaining
procedures which are the most important preventive and restorative services for children.
The State will continue to cover all procedures deemed medically necessary for EPSDT
children but will require prior authorization and pay only current rates for any procedures
that have been eliminated for adults. These actions were based on discussions with and
recommendations from the State dental association.

    For more information contact:

    Carol Gable, Consultant

    Office of Medicaid Policy and Planning

    Indiana Family and Social Services Administration

    402 West Washington Street, Room W382

    Indianapolis, IN 46204

    317-232-2091


Minnesota Medicaid Provider Mandate

In 1994, Minnesota enacted legislation (Rule 101) requiring that dentists and other
providers treat Medicaid beneficiaries as a condition of participation in health insurance
and workers’ compensation plans for State employees. Minnesota EPSDT staff believe
that Rule 101 has improved children’s access to dental services by increasing the supply of
available dentists.

Rule 101 requires that providers accept new Medicaid patients on a continuing basis, using
the same acceptance criteria they would use for non-Medicaid patients, up to a threshold of
20 percent. If a provider’s active Medicaid patient case load exceeds 20 percent, the
provider may refuse to accept new beneficiaries. The rule includes a formula for
determining this threshold. The formula includes such factors as active patient caseload,
number of patient visits, and length of time enrolled as a Medicaid provider. Providers
must notify the State when they have reached the threshold and will not take new
Medicaid patients.




                                           B-8

    For more information contact:

    Lawrence D. Grewach, Manager

    Dental Demonstration Project

    Minnesota Department of Human Services

    444 Lafayette Road, 6th Floor

    St. Paul, MN 55155

    612-296-1481


New Mexico Patient Management Assistance

New Mexico worked closely with its State dental association in 1994 and 1995 to
streamline claims processing and help dentists better manage Medicaid families and
children. For example, as part of a training program on improving claims processing, New
Mexico offered suggestions to dentists on how to manage young children in the dental
office. State officials also are seeking to allow dentists who participate in this training to
receive continuing education credits.

    For more information contact:

    Dr. Ken Padilla, Planner

    Ambulatory Care Section

    Medical Assistance Division

    New Mexico Human Services Department

    P.O. Box 2348

    Santa Fe, NM 87504-2348

    505-827-3177


North Carolina Clinic Program

North Carolina is enabling local health departments and other clinics to contract with local
dentists for EPSDT services. In some localities, State staff believe this is the only way to
assure the availability of dental services for EPSDT-eligible children. The State clinic
program also will improve access for Head Start programs and initiate or expand dental
services in rural, community, and migrant health centers. By enlisting the support of local
dental societies, the State is hoping to attract dentists who might otherwise not participate
to work full or part time in the clinics.

    For more information contact:

    Dr. C. Jean Spratt, Director

    Division of Dental Health

    North Carolina Department of Environment, Health and Natural Resources

    P.O. Box 27687

    Raleigh, NC 27611

    919-733-3853



                                            B-9
Wisconsin Access and Utilization Initiatives

In 1993, the Wisconsin Dental Association, in cooperation with State Medicaid and dental
public health staff, initiated projects to help dentists deal with problems such as "no-show
patients." By alleviating such problems, dentists may be more willing to participate in the
EPSDT program.

To formulate recommendations, the dental association and the State formed a task force of
Medicaid staff and dentists who provide EPSDT services. The task force interviewed
dentists and their support staff and developed suggestions to deal with "no-show patients."
The suggestions include:

  • mailing reminders to patients and following up with phone calls a day in advance;

  • requiring patients to call the office and confirm their appointment 24 hours in advance
    or their appointment will go to someone else;

  • explaining why keeping appointments is important;

  • setting aside a specific block of time or certain days for Medicaid patients and treating
    patients on a first-come, first-served basis during those times; and

  • letting patients know where they can get help with transportation or child care so they
    can keep appointments.

The dental association has prepared an informational pamphlet describing these suggestions
and others. Other informational materials describe county dental society clinic and
volunteer programs in Wisconsin.

    For more information contact:

    Maryann Dillon, Director of              Dr. Warren LeMay, Oral Health Consultant

      Dental Services                        Bureau of Public Health

    Wisconsin Dental Association             Division of Health

    111 East Wisconsin Avenue,               1414 East Washington Avenue

      Suite 1300                             Madison, WI 53703

    Milwaukee, WI 53202                      608-266-5152

    414-276-4520

Wisconsin Fee Increases

In addition to general dental fee increases over the past few years, which have raised
payments to approximately 61 percent of Statewide average charges, Wisconsin was paying
a $3.50 "bonus payment" for 20 dental procedures most frequently performed on children
under 21. Beginning in 1995, these additional payments have been folded into a further
fee increase which applies only to claims for EPSDT services. These fees are now set at


                                           B - 10
approximately 75 percent of average charges. In part, these increases were possible
because of the State’s decision to eliminate some adult dental benefits and hold the line on
increasing fees for non-EPSDT dental services.

    For more information contact:

    Dr. Warren LeMay, Oral Health Consultant

    Bureau of Public Health

    Division of Health

    1414 East Washington Avenue

    Madison, WI 53703

    608-266-5152


Contra Costa County (CA) "Share-the-Care" Dental Access Project

In 1990, the county dental society and the EPSDT staff in Contra Costa County,
California, initiated a voluntary "share-the-care" project. Participating dentists agree to
take one to three new EPSDT cases, with the understanding that they will not be put on a
list requiring them to see all referred children. County EPSDT staff insure that
participating dentists receive no more patients than they have agreed to treat. Some
dentists choose to bill Medicaid for services; others treat without charge. Some low-income
patients who are not eligible for Medicaid are included.

County staff provide education and outreach to insure that patients keep their
appointments. Staff schedule initial appointments and provide transportation and
translation, if needed. They instruct families about proper hygiene and behavior in the
dentist’s office and strive to overcome any fear of dentists on the part of children or their
parents. Some dentists will drop a family for breaking an appointment without calling to
cancel. The Contra Costa program claims to have an 85 percent "kept-appointment" rate.
County staff and the dental association continue to support the Contra Costa program. It is
a model. Similar programs have been established in other counties in California and in
other States, such as Colorado and Wisconsin.

    For more information contact:

    Robert Isom, Deputy Director
                              Dr. Colleen Zimmer
    Child Health and Disability Prevention Program
            1004 McHugh Street
    Contra Costa County
                                       Fort Collins, CO 80524
    595 Center Avenue, Suite 310
                              303-221-4500
    Martinez, CA 94553

    510-313-6150





                                           B - 11

    Maryann Dillon, Director of Dental Services

    Wisconsin Dental Association

    111 East Wisconsin Avenue, Suite 1300

    Milwaukee, WI 53202

    414-276-4520



PROVIDER TRAINING AND EDUCATION

Iowa Pediatric Dental Education Program

Staff from State Medicaid and dental public health programs are collaborating with the

pediatric dentistry department of the University of Iowa to develop training programs for

general practitioners. They plan to (1) train dentists about pediatric dental issues,

(2) determine how many dentists currently screen children under 3 years of age, and

(3) produce a monograph about what should be included in a child’s first dental exam.


The State will establish panels of dentists who are willing to treat very young or disabled

children. Iowa’s EPSDT screening schedule specifies an initial screening at 12 months of

age, but parents in many communities find that few dentists are willing to examine

children that young. In addition, few dentists are willing to serve children with disabilities.

The State has established a panel of dentists who are willing to treat disabled children and

hopes to set up a similar panel of dentists who are willing to see children before their first

birthday. Among other methods to improve access for this age group, the State will (1)

conduct a survey to find out how many children are screened before their first birthday, (2)

assess dentists’ attitudes about treating young children, and

(3) locate dentists willing to staff Iowa’s 25 child health clinics.


    For more information contact:

    Dr. William C. Maurer, Chief

    Dental Health Bureau

    Iowa Department of Public Health

    Lucas State Office Building

    Des Moines, IA 50319-0075

    515-281-4916


Texas Oral Health Video Project

In 1995, the Texas Medicaid program began developing a videotape about oral health
examinations for use by non-dental health workers who screen young children. The video
will describe techniques for adequate oral screening, explain what should be included in
oral health counseling, and specify that children should be referred to dentists if decay or
abnormalities are found. To prepare the videotape, Texas staff consulted with the pediatric
dental department of the University of Washington and others.



                                            B - 12

      For more information contact:

      Dr. Nana Lopez, Chief
      Bureau of Dental Services
      Texas Department of Health
      1100 West 49th Street
      Austin, TX 78756
      512-458-7323

Spokane (WA) Dental Prevention Project: "Access to Baby and Child Dentistry"

Spokane, Washington is the site of a demonstration project that (1) provides dental
prevention services to young, at-risk children from birth through age 5 and (2) trains
dentists on recent developments in pediatric dentistry. Initiated in 1995, the project
established a coalition of pediatric dentists from the University of Washington dental
school, dentists in Spokane, and State Medicaid and dental public health staff. The project
will:

  • screen, diagnose and treat the children,
  • provide family oral health education,
  • calculate the direct costs and cost savings derived from the preventive program,
  • study factors that determine children’s utilization of dental services,
  • determine if improved access changes parents attitudes so that they will visit dentists
    more frequently, and
  • assess the cost effectiveness of a new technique to provide fluoride varnish.

Pediatric dentists from the dental school will train participating dentists in recent pediatric
dental techniques. According to project staff, training is needed because most general
practitioners lack pediatric dental knowledge. The Washington Department of Health
Services will pay participating Spokane dentists higher fees than dentists get for similar
services in the rest of the State.

Although the project will cost the State an estimated $3 million, project staff hope to
demonstrate significant cost benefits. The project has submitted an application to the
National Institute of Dental Research to fund a 4-year cost benefit and utilization study.

      For more information contact:

      Dr. Peter Milgrom, Director                 Elizabeth Hines, Oral Health Service

      Dental Fears Research Clinic                  Administrator

      Dental Public Health Sciences               Community and Family Health

      University of Washington School             Washington Department of Health

        of Dentistry                              P.O. Box 47880
      Box #357475                                 Olympia, WA 98504-7880
      Seattle, WA 98195                           360-753-5423
      206-685-2453


                                             B - 13
A P P E N D I X C


 AGENCY COMMENTS





       C-1

C-2

C-3

C-4

C-5

C-6

C-7

C-8

C-9

C - 10

C - 11

C - 12

C - 13

